No. 20-319

 

 

IN THE

Supreme Court of the United States

COMCAST CORPORATION, ET AL.

Petitioners,
v.

VIAMEDIA, INC.,
Respondent.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Seventh Circuit

BRIEF OF AMICI CURIAE SCHOLARS OF
ECONOMICS AND ANTITRUST IN SUPPORT
OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,880 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 13, 2020.

Colin Casey (—

Wilson-Epes Printing Co., Inc.
